I

Supreme Court, U.S.
FILED

A

20

APR 2 b 2020
No.

OFFICE OF THE CLERK

3ln i\)z
Supreme Court of tljc Mnttob States?
Anthony C. Green,
Petitioner,
V.

Kelly Lake, et al.,
Respondents.

On Petition for Wr it of Certiorari to the
United States Court of Appeals for the Eighth Circuit

PETITION FOR WRIT OF CERTIORARI

Anthony C. Green
1111 Highway 73
Moose Lake, Minnesota 55767-9452
PROPER/PER/S ON A
Facility Voice: (218) 565-6000

Daniel P. Kurtz
Attorney at Law
145 University Ave. West
St. Paul, Minnesota 55103-2044
(Attorney for Moose Lake Defs.)

Nathan Midolo
Attorney at Law
9321 Ensign Ave. South
Bloomington, Minnesota 55438
(Attorney for Carlton County Defs.)

Brandon Boese
Assistant Attorney General
AttTReg. No. 0396385
1800 NCL Tower
445 Minnesota Street
St. St. Paul, Minnesota 55101-3124

* i

QUESTION PRESENTED
The question presented is whether the 8th Circuits’ decision is contrary
to this Court’s decision in Kingsley.
In 2015, the United States Supreme Court reversed a lower court
decision by the 7th Circuit Court of Appeals and the U.S. Dist. Court
for the District of Wisconsin. This Court held that in a civil
commitment context the standard for excessive force was
“objectively unreasonableness.” Since then there has been numerous
cases around the Country that have been confronted with this issue,
but have adhered to this Court’s holding in Kingsley. However, the
U.S. District Court for the District of Minnesota and now the 8th
Circuit Court of Appeals have all but washed this Court’s decision in
Kingsley down the toilet.
PETITION FOR A WRIT OF CERTIORARI
Petitioner Anthony C. Green petitions for a writ of certiorari to the
United States Court of Appeal for the Eighth Circuit in Green v. Lake,
et al. 19-2001.
OPINIONS BELOW
The Judgment of the District Court is reported at 2019 U.S. Dist.
LEXIS 48762 (U.S. Dist. Ct. for the Dist. of Minn. Marc. 25, 2019).
Petitioner does not have the 8th Circuit Court of Appeals judgment, but
was affirmed on February 18, 2020.
JURISDICTIONAL STATEMENT
The judgment of the United States Court of Appeals for the Eighth
Circuit was entered on February 18, 2020. Petitioner was unable to
timely file a petition for re hearing enbanc. This Court’s jurisdiction is
invoked pursuant to 28 U.S.C. § 1254(1).

2

t
V

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
The Fourteenth Amendment to the United States Constitution provides,
in pertinent part: “[N]or shall any State deprive any person of life,
liberty, or property, without due process of law.”
INTRODUCTION
This case involves the scope and strength of the bedrock constitutional
principle that mandates that the deliberate misconduct for those
assigned to care for the civilly committed be assessed under an
objective reasonableness standard. The 8th Circuit and the District
Court of Minnesota has decided to go against this Court’s decision in
Kingsley and state that the objective reasonable standard does not
apply to those civilly committed to the Minnesota Sex Offender
Program (MSOP). The fatal flaw of the lower court’s decisions, and
the crux of this Petition, is its failures—by implementation to
meaningfully ensure that objective reasonableness standard is used and
not the subjective standard component. After lengthy court
proceedings regarding this issue (the case was stayed prior because of
Karsjens et al. v. Piper, etal., 845 F.3d 394 (8th Cir. 2017).
Now is the particularly important time for this Court to set out clearly
that the objective reasonableness standard must apply to all persons
civilly committed, no matter where they are committed, i.e. Wisconsin,
Washington State, etc. the Eight Circuit’s ruling makes clear that it will
not abide or apply by the standards set out by this Court in Kingsley.
Such a ruling cannot stand under our Constitution, especially when its
subjects are some of the most politically powerless, despised, and
vulnerable among us.

3

t

TABLE OF CONTENTS
TABLE OF AUTHORITIES

4

INTRODUCTION AND SUMMARY OF ARGUMENT

3

I. THE COURT SHOULD GRANT THE PETITION TO CONSIDER THE
STANDRAD ALREADY SET IN KINGSLEY...................................................

5-7

A. The Court Should Consider the Standard in Kingsley...............................

5-7

B. This Court Should Also Consider Whether Qualified Immunity Protects
the MSOP officials................................................................................ ............

7-8

C. The Court Should Consider Factors under the Due Process Clause of the
Fourteenth Amendment....................... ................................................................

8

CONCLUSION

9-10
TABLE OF AUTHORITIES
CASES

Kingsley v. Hendrickson, 135 S. Ct. 2466, 192 L. Ed. 2d 416 (2015), Passim
Castro v. Cnty. ofLos Angeles, 833 F.3d 1060, 1069-71 (9th Cir. 2016)6
Stevenson v. Cty: Sheriffs Office of Monmouth, 2020 U.S. Dist. LEXIS
1517 (U.S . Dist. Ct. for the Dist. of New Jersey, Jan. 3, 2020)
6
Smith v. Oreol, 2018 U.S. Dist. LEXIS 226670 (U.S. Dist. Ct. for the
Cent. Dist. of Cal., Marc. 20, 2018).............
7
Bell v. Wolfish, 441 U.S. 520, 535-36 (1979)

8

Allen v. Ludeman, No. 10-176 (ADM/JJK), 2011 WL 978658, at *2
(D. Minn. Mar. 17,2011)....................................
8
Serna v. Goodno, 567 F.3d at 948 (8th Cir. 2009)

8

Apkarian v. Mcallister, 2019 U.S. Dist. LEXIS 152914 (U.S. Dist. Ct.
for the W. Dist. of Wis. Sept. 9, 2019)
9
4

REASONS FOR GRANTING THE PETITION
I. The Eight Circuit’s Ruling Conflicts With This Court’s
Standards Already Set In Kingsley.
There have been a number of substantial cases regarding the
“subjective reasonableness” and “objective unreasonableness”
standards. There have been numerous cases regarding the objective
unreasonable standard and persons who are civilly committed. This
Court held that a pretrial detainee’s excessive force claim need only
meet a lesser "objectively unreasonable" standard under the
Fourteenth Amendment. Kingsley, confirmed that using an Eight
Amendment criminal recklessness standard for those who have not
been convicted of a crime provides insufficient protection from abuse
of power. Some courts have acknowledged that where the claim
involves excessive force, the substantive due process analysis is the
same for pretrial detainees and the civilly committed, and thus,
Kingsley’s objective standard governs. Further, Kingsley should not be
restricted to excessive force claims, but rather, should be interpreted
as a general rejection of the Eighth Amendment’s criminal
recklessness mens rea for all claims brought by detainees as well as
the civilly committed.
This Court in Kingsley rejected the analysis of a defendant’s
subjective state of mind in excessive force cases and concluded “the
appropriate standard for a pretrial detainee’s excessive force claim is
solely an objective one.” See also Castro v. Cnty. of Los Angeles, 833
F.3d 1060, 1069-71 (9th Cir. 2016) (en banc) (applying Kingsley to
deliberate indifference claims).
In Stevenson v. Cty. Sheriff’s Office of Monmouth, 2020 U.S. Dist.
LEXIS 1517 (U.S. Dist. Ct. for the Dist. of New Jersey, Jan. 3, 2020),
the District Court denied defendants motion for summary judgment. A
pretrial detainee may prevail on his Fourteenth Amendment excessive
force claim by showing "only that the force purposely or knowingly
used against him was objectively unreasonable." Id. Whether actions

5

were objectively reasonable "turns on the 'facts and circumstances of
each particular case.'" Id. (quoting Graham, 490 U.S. at 396). Courts
are instructed to consider:
the relationship between the need for the use of force and the amount
of force used; the extent of the plaintiffs injury; any effort made by
the officer to temper or to limit the amount of force; the severity of the
security problem at issue; the threat reasonably perceived by the
officer; and whether the plaintiff was actively resisting. Id.
In Aruanno v. Maurice, 2019 U.S. Dist. LEXIS 32486 (U.S. Dist. Ct.
for the Dist. of New Jersey, Oct. 30, 2019) rev. & rem. for further
proceedings, the Court held that a non-convicted detainee need only
show that the “use of force was unreasonable in light of the facts and
circumstances at the time.” Citing Kingsley. However, "[i]n the Ninth
Circuit, the standard for excessive force claims is derived from the
Fourth Amendment whether the claim is brought under the Fourth or
the Fourteenth Amendments." Endsley v. Luna, 750 F. Supp. 2d 1074,
1094-95 (C.D. Cal. 2010), affd, 473 F. App'x 745 (9th Cir. 2012).
Hence, because Plaintiffs claims arise under the Fourteenth
Amendment, the standard is one of objective reasonableness. Id.
(analyzing excessive force claims by civilly committed detainee using
objective reasonableness standard); see also Hydrick, 500 F.3d at 99798 (stating that an objective reasonableness standard applies to
excessive force claims by persons who are involuntarily civilly
committed).1
The Eighth Circuit Court of Appeals has held that a reasonable jury
could find officers had no reasonable basis to believe, at the time that
jailers entered the cell and allegedly beat a detainee, that force was
needed to prevent the detainee from endangering himself or others, if
the jury believed the detainee's testimony that he was simply sitting in
his cell and not yelling or kicking the walls and doors at the time that

1 Smith v. Oreol, 2018 U.S. Dist. LEXIS 226670 (U.S. Dist. Ct. for the Cent. Dist.
of Cal., Marc. 20, 2018) defendants motion to dismiss denied. Discussing
Kingsley and the proper standard for those civilly committed.
6

r’

jailers used force against him, although he had done so previously.
Thompson v. Zimmerman, 350 F.3d 734, 735 (8th Cir. 2003).
II. DEFENDANTS WERE NOT ENTITLED TO QUALIFIED
IMMUNITY.
It has been long held that officials who violate clearly established law
(constitutional rights) are not entitled to qualified immunity. Knutson
v. Ludeman, U.S. Dist. LEXIS 20285 (D. Minn. Jan. 12, 2011) report
and recommendation adopted (2011 U.S. Dist. LEXIS 20627 (D.
Minn. Mar. 1, 2011) (citing Pearson v. Callahan, 555 U.S. 223, , 129
S. Ct. 808, 815, 172 L. Ed. 2d 565 (2009), quoting Harlow v.
Fitzgerald, 457 U.S. 800, 818, 102 S. Ct. 2727, 73 L. Ed. 2d 396
(1982) and holding that finding that even if defendants were found to
have acted in good faith, causing the monetary damages claims against
them to be dismissed based on qualified immunity, plaintiffs efforts to
enjoin defendants’ future conduct would still remain alive. Denying
defendants motion for qualified immunity. See also Williams v.
Johnston, U.S. Dist. LEXIS 38440 (D. Minn. Jan. 28, 201 5) report and
recommendation adopted 2015 U.S. Dist. LEXIS 37585 (D. Minn.,
Mar. 25, 2015) (same, denying qualified immunity).
'"Qualified immunity protects a government official from liability in a
[section] 1983 claim unless his or her conduct violated a clearly
established statutory or constitutional right of which a reasonable
person would have known.'" Vaughn v. Greene Cty., Ark., 438 F.3d
845, 849-50 (8th Cir. 2006) (alteration in original) (quoting Pool v.
Sebastian Cty., Ark., 418 F.3d 934, 942 (8th Cir. 2005)). "To overcome
qualified immunity, plaintiffs must demonstrate both that '(1) there was
a deprivation of a constitutional or statutory right, and (2) the right was
clearly established at the time of file deprivation.'" Dean v. Cty. of
Gage, Neb., 807 F.3d 931, 936 (8th Cir. 2015) (quoting Parker v.
Chard, 111 F.3d 977, 980 (8th Cir. 2015)).

7

III. Unreasonable Search and Seizure Claims.
Involuntarily civilly committed persons retain the Fourth Amendment
right to be free from unreasonable searches, analogous to the right
retained by pretrial detainees. Serna, 567 F.3d at 948. Therefore,
while such persons are entitled to more considerate treatment and
conditions than criminals, their rights must still be balanced against
the interests of the state. See Youngberg, 457 U.S. at 321-22.
Accordingly, “not all search techniques may be swept under the rug of
deference to the detention-center decisionmakers[.]” Serna, 567 F.3d
at 955. This case was only at the pleading stage, 'and the Supreme
Court in Bell instructed that the balancing that needs to be done to
determine the reasonableness of a search must be done on a case-by­
case basis and requires at least some evidentiary record:
The test of reasonableness under the Fourth Amendment is not
capable of precise definition or mechanical application. In each-case it
requires a balancing of the need for the particular search against the
invasion of personal rights that the search entails. Courts must
consider the scope of the particular intrusion, the manner in which it is
conducted, the justification for initiating it, and the place in which it is
conducted. Facts relating to the scope of the search, the manner in
which it was conducted, the justification for the search, and the places
in which it was conducted were not developed.2

2 Allen v. Ludeman, No. 10-176 (ADM/JJK), 2011 WL 978658, at *2 (D. Minn.
Mar. 17, 2011) (denying motion to dismiss.strip search .claim where plaintiff
alleged defendants forced him to do a strip search before and after leaving the
Annex at the Moose Lake Prison facility in order to attend Native American
ceremonies at MSOP’s main building); Beaulieu v. Ludeman, No. 07-1535
(JMR/JSM), 2008 WL 2498241, *12 (D. Minn. June 18, 2008) (surviving
motion to dismiss because there was insufficient information at the pleading
stage to evaluate the reasonableness of the strip searches).

8

CONCLUSION
The lower courts should have left, the qualified immunity issue would
have been more suited for disposition through summary judgment.
Claims by prisoners who are not convicted-such as pretrial detainees
or civilly committed sex offenders under Wis. Stat. Ch. 980-are
ordinarily governed by the Fourteenth Amendment, under which
plaintiffs need not prove the defendant’s subjective state of mind; they
need show only that the defendant’s actions were “objectively
unreasonable. 5^3 As stated, the Eighth Circuit’s ruling created an
irreconcilable conflict with a number of Federal Courts, Appellate
Courts and this Court’s holding in Kingsley. The Eight Circuit’s ruling
holds the opposite of what this Court has ruled and the standard set
forth by this Court in Kingsley,4
The Eight Circuit ignored this Court’s standard which is in direct
conflict of Kingsley. This Court has a unique and unequivocal
obligation to guard the most vulnerable, despised, and politically
powerless among us against majoritarian encroachment on
fundamental rights and liberties. See United States v. Carolene
Products, Inc., 304 U.S. 144, 152 n.4 (1938) (noting that “prejudice
against discrete and insular minorities . . . which tends seriously to
curtail the operation of those political processes ordinarily to be relied
upon to protect minorities . . .may call for a correspondingly more
searching judicial inquiry”); McCleskey v. Kemp, 481 U.S. 279, 343
(1987) (Brennan, J., dissenting) (“[tjhose whom we would banish
from society or from the human community itself often speak in too
faint a voice to be heard above society’s demand for punishment. It is
Apkarian v. Mcallister, 2019 U.S. Dist. LEXIS 152914 (U.S. Dist. Ct. for the W.
Dist. of Wis. Sept. 9, 2019) (citing Kingsley)', see also Miranda v. Cty. of Lake,
900 F. 3d 335, 352 (7th Cir. 2018) (expanding Kingsley’s rationale to medical
care claims).
4 The Eight Circuit’s ruling holds that the subjective component instead of the
objectively unreasonable component is to be used by persons civilly committed,
especially at the MSOP.
9

the particular role of courts to hear these voices, for the Constitution
declares that the majoritarian chorus may not alone dictate the
conditions of social life.”). The Eighth Circuit did the opposite in this
case. By finding that no objectively unreasonable component existed,
applying rational basis review and requiring Petitioner to prove
subjective state of mind behavior, the circuit court sent a clear and
dangerous message that federal courts are not going to intervene in
objectively unreasonable cases - even when the result is effectively
permanent without any basis. This Court should not allow that
dangerous impression to stand.
This case is the ideal vehicle for the Court to address this important
issue. Furthermore, the dispositive issue is the appropriate standard of
Kingsley to apply. This case thus presents a straightforward way to
resolve the issue and prevent proliferation of confusing rulings such as
the one reached by the Eighth Circuit.
For the foregoing reasons, the petition for writ of certiorari should be
granted.
Re-Executed on July 10, 2020
Anthorjy C. Green
1111 Flighway 73
Moose Lake, Minnesota 55767-9452
PROPER/PER/SONA
Facility Voice: (218) 565-6000

10

